           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   AN INDIVIDUAL REPRESENTATIVE PAYEE
FOR THE SOCIAL SECURITY ADMINISTRATION
       IN GRAND RAPIDS, MICHIGAN


      February 2011   A-15-10-11077




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      February 23, 2011                                                          Refer To:

To:        James F. Martin
           Regional Commissioner
            for Chicago

From:      Inspector General

Subject:   An Individual Representative Payee for the Social Security Administration in Grand
           Rapids, Michigan (A-15-10-11077)


           OBJECTIVE
           Our objectives were to determine whether the selected representative payee for the
           Social Security Administration (SSA) (1) had effective safeguards over the receipt and
           disbursement of Social Security benefits, (2) used and accounted for Social Security
           benefits in accordance with SSA policies and procedures, and (3) adequately protected
           the beneficiaries’ personally identifiable information (PII).

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
           to appoint representative payees to receive and disburse benefits for those
           beneficiaries’ payments. 1 A representative payee may be an individual or an
           organization. SSA selects representative payees for Old-Age, Survivors and Disability
           Insurance (OASDI) beneficiaries and Supplemental Security Income (SSI) recipients
           when representative payments would serve the individuals’ interests. Representative
           payees are responsible for managing benefits in the beneficiary’s best interest. 2 See
           Appendix B for additional representative payee responsibilities.




           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               We use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
Page 2 – James F. Martin


The representative payee under review is a volume individual payee, which is a payee
that administers benefits for 15 or more SSA beneficiaries. 3 This representative payee
was the Executive Director of a nonprofit organization focused on outreach services to
people in unfortunate circumstances. During our audit period, April 1, 2009 to
March 31, 2010, this representative payee received payments under SSA’s OASDI and
SSI programs on behalf of approximately 182 beneficiaries. The representative payee
was the court-appointed guardian and/or conservator for approximately
25 percent of the beneficiaries he served. Most of the beneficiaries the representative
payee served had mental or mood disorders, such as schizophrenia.

To accomplish our objectives, in May 2010, we conducted a site visit to the
representative payee’s office, where we reviewed a sample of 55 beneficiaries:
25 beneficiaries for whom the representative payee served as both representative
payee and court-appointed guardian, and 25 beneficiaries for whom the representative
payee served only as payee. We also reviewed five beneficiaries’ files where the
representative payee served as the court-appointed conservator. See Appendix C for
the scope and methodology of our review.

RESULTS OF REVIEW
Before our May 2010 site visit, SSA completed a review of this individual representative
payee in February 2010. During its review, SSA noted the representative payee was
charging unauthorized fees to most of the beneficiaries. Although the fees were
unauthorized, SSA concluded that a small payment to the representative payee for
business expenses was in the beneficiaries’ best interests because the payee provided
high-quality relationships and numerous support services. For example, the
representative payee had four professional staff who served as independent contractors
and worked with volunteers from local churches, colleges, and seminaries to provide
services to SSA beneficiaries, including arranging medical appointments; finding
housing and employment; providing transportation to and from appointments; and
delivering food, clothing, and medications. This representative payee met the
requirements for being a fee-for-service organization as defined by SSA’s Program
Operations Manual System (POMS). After our review, the representative payee
converted to a fee-for-service, which allows for the collection of a minimal monthly fee. 4

During our site visit, the representative payee informed us of SSA’s finding during the
2010 review. Upon notification from SSA, the representative payee stated he ceased
collecting fees in February 2010. During our review of 55 beneficiaries’ files from
April 1, 2009 to March 31, 2010, we noted that the representative payee had charged

3
    SSA, POMS, GN 00605.400(C)(1).
4
  SSA, POMS, GN 00506.100: Section 5105 of the Omnibus Budget Reconciliation Act of 1990, Pub. L.
No. 101-508, included a provision permitting qualified organizations to collect a fee. This fee is deducted
from the beneficiary’s payment and is used for expenses (including overhead) incurred by the
organization in providing services performed as the beneficiary’s representative payee.
Page 3 – James F. Martin


53 beneficiaries a total of $12,598 for his representative payee services; however, no
fees were collected in February or March 2010. This totaled an average of $24 per
beneficiary each month. Because of the level of service provided by the representative
payee, these fees do not appear excessive.

The representative payee also informed us that during the triennial review, SSA
identified two SSI recipients whose bank balances had exceeded the $2,000 resource
limit. These recipients were included in our sample and noted during our review;
however, SSA had already assessed an overpayment, which the representative payee
repaid during our review period. SSA informed the representative payee of the
importance of reporting changes in circumstances that may affect a beneficiary’s
payment.

In addition to the issues SSA noted during its triennial review, we found that the
representative payee

•     did not maintain documentation to support how most of the beneficiaries’ funds were
      used;
•     did not maintain a signed record of cash transactions to beneficiaries;
•     did not properly title individual bank accounts for six beneficiaries;
•     failed to invest conserved funds for the benefit of one beneficiary; and/or
•     held funds received for six Social Security beneficiaries in a collective trust account
      that did not meet SSA requirements.

Further, we found the representative payee’s controls for physically securing
beneficiaries’ PII and financial records needed improvement.

Insufficient Supporting Documentation

Although the representative payee did not always maintain proper or complete
documentation to support the beneficiaries’ expenses, we believe the representative
payee used their benefit payments to meet their current needs. Federal regulations5
require that representative payees keep accurate and complete records of the funds
received and spent to determine whether the beneficiaries’ current needs are being met.
The representative payee did not retain invoices for such expenses as rent, utilities, and
medical care. Although we could not confirm these expenses without receipts, we were
able to examine the representative payee's check register transactions to identify the
purpose of the expenditures. The check register documented expenditures for what
appeared to be legitimate purposes, such as rent, utilities, and other miscellaneous
expenses. Although we cannot confirm how these funds were expended without
receipts, nothing came to our attention during our examination of the check register that
led us to believe the expenditures were not for the beneficiaries’ needs. Further, our
interviews with several beneficiaries did not disclose any concerns that led us to believe

5
    20 C.F.R. §§ 404.2065 and 416.665.
Page 4 – James F. Martin


the beneficiaries' needs were not being met. After our review, the representative payee
informed us that it began scanning supporting documents, such as receipts, to retain for
each beneficiary.

Lack of Cash Receipt Log

We found that approximately 60 percent of our sampled beneficiaries received a cash
disbursement. Each week, the representative payee disbursed cash to beneficiaries for
personal allowances and other needs. For these cash disbursements, the
representative payee did not maintain a log of signed cash receipts to show the
beneficiary actually received the cash. Based on monthly budgets created for each
beneficiary, the representative payee's office manager determined the amount of
allowance available for each beneficiary weekly. Each week, one of the representative
payee’s employees put the weekly allowances into an envelope with a label including
the beneficiary's name, address, and allowance amount. A different employee would
then deliver the envelopes to the beneficiaries at the end of each week.

During our site visit, we observed the representative payee’s employee distributing cash
to several beneficiaries. If a beneficiary was not available, the employee would slip the
envelope under the beneficiary's door. We noted that the employee did not make any of
the beneficiaries sign a cash log to indicate receipt of the cash.

Internal controls serve as the first line of defense in safeguarding assets and preventing
and detecting errors and fraud. Maintaining a cash receipt log for beneficiary cash
transactions is an effective safeguard the individual representative payee should use.

Individual Bank Accounts Did Not Meet SSA Requirements

We found that the representative payee did not properly title the individual bank
accounts for six beneficiaries in our sample. While the accounts included the payee
and beneficiaries’ names, they did not show the payee had only a fiduciary interest.
According to SSA guidelines,6 if a representative payee requests direct deposit, the title
of the account or subaccount must show that the representative payee has only a
fiduciary interest in the account or subaccount. The beneficiary must not have direct
access to the account. The representative payee stated he had been working with the
bank to correct this issue. He was working with several banks to find one that will meet
the needs of his beneficiaries, including ensuring the correct bank account titles.




6
    SSA, POMS, GN 02402.055.
Page 5 – James F. Martin


Excess Conserved Funds Were Not Invested

During our review, we noted one beneficiary who had an account balance over
$10,000 for 8 months during our audit period. Representative payees are responsible
for using benefits for the beneficiary’s immediate and reasonably foreseeable needs.7
The representative payee must conserve or invest any remaining funds for the benefit of
the beneficiary. SSA encourages payees to place accumulated Title II funds in excess
of $500 in interest-yielding investments. Although funds over $500 may be needed for
the beneficiary's foreseeable needs, an account balance over $10,000 appears
excessive. The representative payee should have invested the excess funds in an
interest-bearing account or other investment that was relatively free of risk. 8

Collective Bank Account Did Not Meet SSA Requirements

We found that the representative payee had transferred large amounts of funds from six
beneficiaries’ checking accounts into a single trust account. The representative payee
used this account as a collective savings account for beneficiaries with excess funds.
Our review of the collective bank account disclosed that the representative payee did
not

•     request SSA approval to use the collective account for Social Security beneficiaries
      or
•     properly title the account to show the funds belonged to the beneficiaries.

A representative payee with a collective bank account must seek approval from SSA for
the account. Approval is required so SSA can monitor these accounts every 3 years to
ensure they comply with SSA requirements.9 The representative payee must properly
title the collective accounts to protect beneficiaries' funds from loss or theft if the payee
has financial problems or declares bankruptcy. The Federal Deposit Insurance
Corporation insures bank deposits for individuals in collective accounts if the deposit
account record shows a relationship between the account holder and its clients. 10 The
account title must show that funds belong to the beneficiary, and the representative
payee only has fiduciary rather than personal interest in the funds. 11 We found that the
representative payee titled the collective account with the representative payee's
nonprofit company name only, and the account title did not reflect the beneficiaries'
ownership of their Social Security benefits. Because the representative payee titled the
account to show his company owned the funds, the beneficiaries' assets were at risk for

7
    SSA, POMS GN 00603.001.
8
    SSA, POMS, GN 00603.020.B.1.c.
9
    SSA, POMS, GN 00603.020.B.
10
     12 C.F.R. § 330.5(b)(1).
11
  SSA, POMS, GN 00603.020.B.1.a; SSA , A Guide for Representative Payees (No. 05-10076), p. 15,
January 2009.
Page 6 – James F. Martin


loss or theft. After our review, the representative payee returned all funds from the
collective account to each beneficiary’s checking account.

Protection of PII and Other Assets

We found that the representative payee did not have internal controls to adequately
protect the beneficiaries' PII and financial records. Specifically, the representative
payee did not have adequate physical security controls to restrict unauthorized access
to beneficiaries' records and assets. During our site visit, we noted that the
representative payee kept the beneficiaries’ files in unlocked filing cabinets in the office.
These files contained bank statements, personal correspondence, and court
documentation--all with PII such as name, address, bank account numbers, and Social
Security numbers. The representative payee's office manager stated that each of the
employees, as well as the cleaning company personnel, had a key to the office.

In addition, we noted that the representative payee left the blank check stock and the
representative payee's signature stamp on the office manager's desk each evening.
The lack of access restrictions and physical safeguards for maintaining beneficiaries'
sensitive personal and financial information increases the risk of loss or unauthorized
use of beneficiaries' personal information and funds. We also noted there was a lack of
segregation of duties relating to paying beneficiaries’ expenses. The representative
payee's office manager wrote, signed, and mailed all checks. He was also in charge of
all the accounting of beneficiaries' funds. There was no approval process to ensure the
representative payee paid expenses to the correct vendor and in the correct amount.
The lack of segregation of duties increases the risk of loss or unauthorized use of
beneficiaries' funds.

CONCLUSION AND RECOMMENDATIONS
Although we found various deficiencies in the representative payee’s business
practices, we found that the representative payee generally accounted for benefits in
accordance with SSA’s policies and procedures. We noted that the representative
payee provided high-quality relationships and numerous support services for the
beneficiaries in his care; however, we found that the representative payee did not have
effective safeguards over the receipt and disbursement of Social Security benefits. We
also noted that the representative payee did not adequately protect the beneficiaries’
PII. Although the representative payee did not have effective safeguards, we did not
find that the benefits were misused. In addition, we did not find any quality of care
issues. During our audit, the representative payee began taking corrective actions on
our findings.
Page 7 – James F. Martin


We recommend that SSA instruct the representative payee to:

1. Maintain sufficient documentation for all the beneficiaries it serves to support that
   Social Security benefits are used in the best interest of the beneficiaries.

2. Maintain a cash receipt log for cash disbursements to beneficiaries.

3. Follow SSA's requirements for the proper titling of individual bank accounts.

4. Place beneficiaries’ conserved funds of $500 or more in an interest-bearing account
   or a relatively risk-free investment.

5. Follow SSA's requirements for the use of collective bank accounts.

6. Implement internal and physical security controls to safeguard beneficiaries' financial
   records, PII, and assets.

7. Implement adequate segregation of duties for the disbursement of benefits.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D, and the representative payee’s comments are included in Appendix E.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Responsibilities

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – Representative Payee Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
C.F.R.        Code of Federal Regulations
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
PII           Personally Identifiable Information
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

•     Determine the beneficiary’s current needs for day-to-day living and use his/her
      payments to meet those needs.

•     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•     Maintain account records of how the benefits are received and used.

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested.

•     Return any payments to SSA to which the beneficiary is not entitled.

•     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

•     Be aware of any other income Supplemental Security Income recipients may have
      and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. §§ 404.2035, and 416.635.
                                                                         Appendix C

Scope and Methodology
Our audit covered the period April 1, 2009 through March 31, 2010. To accomplish our
objectives, we:

•   Reviewed applicable Federal laws and regulations as well as the Social Security
    Administration’s (SSA) policies and procedures pertaining to representative payees.

•   Reviewed prior Office of the Inspector General and SSA work in the representative
    payee area.

•   Contacted SSA Chicago Regional Office and Grand Rapids, Michigan, field office
    personnel to obtain background information and prior audits regarding the individual
    representative payee.

•   Compared and reconciled a list of SSA beneficiaries in the representative payee’s
    care from the payee to a list obtained from the representative payee system.

•   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of Social Security benefits.

•   Reviewed a sample of 55 beneficiaries: 25 beneficiaries for whom the
    representative payee served as both the representative payee and court-appointed
    guardian and 25 beneficiaries for whom the representative payee served only as
    payee. We also reviewed five of beneficiaries’ files where the representative payee
    served as the court-appointed conservator. For our three samples of beneficiaries,
    we performed the following tests.

       o Compared benefit amounts paid according to SSA’s record to the benefit
         payment recorded in the payee’s accounting records.

       o Reviewed the bank statements of the beneficiaries’ and payee’s accounting
         records to determine whether benefit payments were properly deposited.

       o Reviewed beneficiary files for supporting documentation of expenses and
         personal spending.

•   Conducted site visits at two care facilities that housed several of beneficiaries in the
    representative payee’s care in addition to four single-family homes where
    beneficiaries rented a room. We interviewed several beneficiaries to determine
    whether their basic needs were being met.




                                             C-1
We determined that the computerized data used during our review were sufficiently
reliable given our objective, and the intended use of the data should not lead to
incorrect or unintentional conclusions.

We performed our fieldwork in Grand Rapids, Michigan, in May 2010 and finalized our
analysis at Headquarters from May through September 2010. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our finding and conclusion based on our audit objectives.




                                         C-2
                  Appendix D

Agency Comments
                          SOCIAL SECURITY ADMINISTRATION


MEMORANDUM

DATE:      January 24, 2011

TO:        Inspector General

FROM:      Regional Commissioner
           Chicago

SUBJECT:       OIG Draft Report, An Individual Representative Payee for the Social Security
               Administration in Grand Rapids, Michigan (A-15-10-11077) AUDIT #
               22010048)--(Your Email Dated December 23, 2010)--REPLY

Thank you for the opportunity to comment on the draft report presenting the results of your audit
of an Individual Representative Payee for the Social Security Administration in Grand Rapids,
Michigan. Having reviewed the report, we submit the following comments.

You recommended that SSA instruct the Representative Payee to:

   1. Maintain sufficient documentation for all the beneficiaries it serves to support that
      Social Security benefits are used in the best interest of the beneficiaries.
      We agree with this recommendation.

   2. Maintain a cash receipt log for cash disbursements to beneficiaries.
      We agree with this recommendation.

   3. Follow SSA's requirements for the proper titling of individual bank accounts.
      We agree with this recommendation.

   4. Place beneficiaries’ conserved funds of $500 or more in an interest-bearing account
      or a relatively risk-free investment.
      We agree with this recommendation.

   5. Follow SSA's requirements for the use of collective bank accounts.
      We agree with this recommendation.

   6. Implement internal and physical security controls to safeguard beneficiaries'
      financial records, PII, and assets.
      We agree with this recommendation.

   7. Implement adequate segregation of duties for the disbursement of benefits.
      We agree with this recommendation.




                                               D-1
We will work with the field office staff to act upon the information set forth in this audit, and
follow up to ensure the representative payee corrects the deficiencies.

Again, we thank you for your assistance and we appreciate being given the opportunity to
comment on the draft report. If members of your staff have questions, they may contact Marva
Watkins at 312-575-4207.


                                                    /s/
                                              James F. Martin




                                                D-2
                                                                  Appendix E

Representative Payee Comments

From: XXXXXXXXXXXX
To: Vetter, Victoria
Sent: Thu Jan 27 09:50:45 2011
Subject: XXXXXXXXXXX Audit

Victoria Vetter
Audit Director
Social Security Administration

The facts of last year’s audit are valid.

Recommendations have been or are in the process of implementation, including finding
a new bank to meet our needs as a representative payee.


Executive Director
XXXXXXXXXXXX
800 Monroe NW, Suite 202
Grand Rapids, MI 49503
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director for Financial Audit Division
   Mark Meehan, Audit Manager

Acknowledgments
In addition to those named above:

   Judi Kammer, Senior Auditor
   Kelly Stankus, Auditor
   Lori Lee, Auditor
   Charles Zaepfel

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-11077.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
